     Department of Homeland Security

     ��������������������������



FEMA Should Recover $5.3 Million of the $52.1 Million
of Public Assistance Grant Funds Awarded to the Bay
         St. Louis Waveland School District in
             Mississippi—Hurricane Katrina




OIG-14-44-D                             February 2014

                                    OFF!CJ:.: OF INSPECTOR G.E~J:.:R4.L
                                         Department of Homeland Security




                                               ~ FR   2 5 1"14

M EMORANDUM FOR:                    Major P. (Phil} May
                                    Regio         ini>trator, Region IV
                                    Fede I Em e gency Ma gement Agency

FROM :
                                    Assi
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Should Recover $5.3 Million of the $52.1 Million of Public
                                    Assistance Grant Funds Awarded to the Boy St. Louis Wove/and
                                    Schoof District In Missis.~ippi-Hurricone Katrina
                                    FEMA Disast er Number 1604-DR-MS
                                    Audit Report Number OIG-14-44-D

W e audited Public Assistance funds awarded to the Bay St. louis Wavelan d School District,
Mississippi (District) (FIPS Code 04S-OOE4A·OO). Our audit objective was to determ ine whether
the District accounted for and e~pended Federa l Emergency Managem ent Agency (FEMA} funds
according to Federal regulations and FEMA guidelines.

The District received a Public Assistan ce grant award of $52.1 million from the Mississippi
Emergency Management Agency (State), a FEMA grantee, for damages resulting from Hurricane
Katrina, which occurred in August 2005. The award provided 100 percent FEMA funding for
debris removal activities, emergency protective measu res, and permanent repairs to buildings
                                                                                1
and faci lities. The award consisted of 721arge projects and 10 small projects.

We audited 36 projects with awards totaling $43.8 million. This included a full scope audit of
the costs claimed for seven large proj ects with awards totaling $27.0 million. We also
performed a limited review of 29 additiona l projects totaling $16.8 million to determine
whether t he District (1) completed the projects (3 small projects), (2) followed Federal
procurement standards when using contractors to complete work (2llarge projects}, and
(3} received duplicate benefits for some projects from another funding source (5 large projects}.
See Exhibit, Schedule of Projects Audited and Quest ioned Costs. The audit covered the period
of August 29, 2005, to February 6, 2013, during w hich the District daimed $42.0 mill ion in
FEMA funds for the 36 projects. At the time of our audit, the District had not completed work
on all proj ects and, therefore, had not submitted a final daim t o the State for all proj ect
expenditures.



I Fcdm~J resul~tions in effect at the time of Hurricane Katrina set the large project threshold at $55,500.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

We conducted this performance audit between February 2013 and October 2013 pursuant to
the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based upon our audit objective. To conduct
this audit, we applied the statutes, regulations, and FEMA policies and guidelines in effect at
the time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed District, State, and FEMA personnel; reviewed the District’s procurement policies
and procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary under the circumstances to accomplish our audit
objective. We did not assess the adequacy of the District’s internal controls applicable to its
grant activities because it was not necessary to accomplish our audit objective. However, we
gained an understanding of the District’s method of accounting for disaster-related costs and its
policies and procedures for administering activities provided for under the FEMA award.


                                      RESULTS OF AUDIT

FEMA should recover $5.3 million of the $52.1 million in grant funds awarded to the District.
Although the District properly accounted for FEMA funds, it did not always expend those funds
according to Federal regulations and FEMA guidelines. The District’s claim included $5,333,797
of questionable costs, as follows:

   •	 $4,405,625 for ineligible contract costs;
   •	 $746,554 of ineligible project costs; and
   • $181,618 of duplicate benefits. 

    

Finding A: Contracting Procedures

The District did not comply with Federal procurement requirements when awarding two
contracts totaling $18,837,190:

   •	 $17,334,772—The District awarded this contract under exigent circumstances using a
      prohibited cost-plus-percentage-of-costs method of contracting and did not perform a
      cost or price analysis. We are not questioning the entire contract amount because the
      work was critical to re-opening the District’s schools. However, we do question
      $2,903,207 in improper markups on costs.



www.oig.dhs.gov                               2	                                     OIG-14-44-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

   •	 $1,502,418—The District awarded this contract for nonexigent work without 

      competition and did not take the required affirmative steps to ensure the use of 

      minority firms, women’s business enterprises, and labor surplus area firms when 

      possible. Therefore, we question the $1,502,418 as ineligible contract costs. 


Federal procurement regulations at 44 Code of Federal Regulations (CFR) 13.36 required the
District, among other things, to—

   •	 Avoid using prohibited cost-plus-a-percentage-of-cost and percentage-of-construction-
      cost methods of contracting. (44 CFR 13.36(f)(4))

   •	 Conduct all procurement transactions in a manner providing full and open competition.
      Noncompetitive procurement is allowable under certain circumstances, one of which is
      when the public exigency or emergency will not permit a delay resulting from
      competitive solicitation. (44 CFR 13.36(c)(1) and 44 CFR 13.36(d)(4)(i)(B))

   •	 Take all necessary affirmative steps to ensure the use of minority firms, women’s
      business enterprises, and labor surplus area firms when possible. (44 CFR 13.36(e))

   •	 Perform a cost or price analysis in connection with every procurement action, including
      contract modifications, to determine the reasonableness of the proposed contract price.
      Applicants must perform a cost analysis when adequate price competition is lacking. (44
      CFR 13.36(f)(1))

In addition, FEMA’s PublicfAssistancefGuidef(FEMA 322, October 1999, p. 39) specifies,
“Contracts must be of reasonable cost, generally must be competitively bid, and must comply
with Federal, State, and local procurement standards.”

Finally, U. S. Federal Acquisition Regulations (FAR Section 16.102) specifically prohibits the use
of cost-plus-percentage-of-cost type contracts by U.S. Government agencies.

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis (44 CFR 13.6(c)).

CostfPlusfPercentagefoffCostfContractfandfCostfAnalysisf

The District awarded a prime contractor a prohibited cost-plus-percentage-of-cost contract for
work totaling $17,334,772 under 13 projects. The noncompetitive contract largely included
work the District started in September 2005 to expedite opening its schools for the 2005-06
school year. The work included mold remediation; replacement of canopies, exterior windows,
doors, and frames; repairs to roofing and flooring; and other various repair items. The


www.oig.dhs.gov                                3	                                       OIG-14-44-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

emergency requirement to get schools opened as quickly as possible after the disaster justified
the District’s use of a noncompetitive contract. However, Federal regulations prohibit cost-plus-
percentage-of-cost contracts because they provide no incentive for contractors to control
costs—the more contractors charge, the more profit they make. Under the contract in
question, the primary contractor added markups of 10 percent each for overhead and profit on
time-and-materials billings for its own employees and on pass-through costs of its
subcontractors. The subcontractors performed approximately 68 percent of the contract work.

Additionally, the District could not provide evidence that it conducted a cost or price analysis to
determine the reasonableness of the contractor’s proposed price. Federal regulation 44 CFR
13.36(f)(1) requires a cost or price analysis be performed in connection with every procurement
action. A cost or price analysis decreases the likelihood of unreasonably high or low prices,
contractor misinterpretations, and errors in pricing relative to the scope of work.

Because the contract work expedited the opening of the District’s schools, we are not
questioning the entire contract amount. However, we question the markups for overhead and
profit, which totaled about $2,903,207 because (1) Federal procurement regulations prohibit
cost-plus-percentage-of-cost contracts, and (2) FEMA has no assurance that the District paid a
fair and reasonable price for the contract work.

DistrictfResponse.fDistrict officials disagreed with our finding, saying that no contract types
other than cost-plus-percentage-of cost were available to the District because specific scopes of
work were impossible to determine as the damage was so extensive. They also said that it was
not the District’s intention or practice to obtain anything but the most competitive prices for
the work needed to recover from the unprecedented disaster.

OfficefoffInspectorfGeneralf(OIG)fResponse. We disagree with District officials that no other
contracting method was available. FEMA’s PublicfAssistancefGuidef(FEMA 322, October 1999,
p. 40) states that, when applicants cannot readily develop clear scopes of work, they may use a
time-and-materials contract with a not-to-exceed provision. Finally, Federal regulation prohibits
cost-plus-percentage-of-cost contracting methods.
f
FullfandfOpenfCompetition

The District did not solicit competitive bids for architectural and engineering (A/E) services
valued at $1,502,418 for permanent repair work under 16 projects. Full and open competition
increases the probability of reasonable pricing from the most qualified contractors and helps
discourage and prevent favoritism, collusion, fraud, waste, and abuse. District officials also did
not take affirmative steps to ensure the use of minority firms, women’s business enterprises,
and labor surplus area firms when possible. These affirmative steps should include using the
services and assistance of the Small Business Administration and the Minority Business
Development Agency of the Department of Commerce, and requiring the prime contractor, if

www.oig.dhs.gov                                4                                        OIG-14-44-D

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security

using subcontracts, to take the affirmative steps listed in Federal regulations 44 CFR
13.36(e)(2)(i) through (v). The District did not give these types of firms the opportunity to bid
on the A/E contract.

Instead of seeking competitive bids for the A/E work, the District hired an A/E firm it used
before Hurricane Katrina. District officials said they were familiar with the contractor’s work
and that other A/E firms did not have the capacity to meet their requirements. However,
District officials did not provide any evidence to support their assertion that no other qualified
A/E firms were available for the project work. Also, the noncompetitive A/E contract did not
support work to expedite the opening of the District’s schools for the 2005-06 school year.
Therefore, we question the $1,502,418 the District claimed for A/E contract work it awarded
under a noncompetitive process (see Exhibit, Schedule of Projects Audited and Questioned
Costs).

DistrictfResponse. District officials disagreed with our finding, saying that they entered into the
contract under exigent circumstances and that they complied with all applicable procurement
procedures.
f
OIGfResponse. We disagree with District officials that exigent circumstances warranted the use
of the no-bid contract. The A/E services were for permanent repair work that began in January
2007, approximately 17 months after the disaster.

Finding B: Ineligible Project Costs

The District’s claim for mold remediation services under Project 8422 included $746,554 of
excessive contract costs. Federal cost principles at 2 CFR 225, Appendix A, Section C.1.a., state
that costs under Federal awards must be both reasonable and necessary.2

In September 2005, shortly after the disaster, the District awarded a noncompetitive contract
for emergency mold remediation for several damaged schools. Exigent circumstances justified
the District’s use of a noncompetitive contract because the work was to protect the schools
from further damage and to get the schools opened as quickly as possible after the disaster.
The District initially used a time-and-materials contract because it could not readily determine a
clear scope of work required to bring the schools back to their predisaster condition. At FEMA’s
recommendation, the District later renegotiated the time-and-materials contract into three
lump-sum contracts totaling $7,680,455. The District paid the contractor, and claimed
$7,680,455 for the contract work. FEMA analyzed the $7,680,455 of costs for reasonableness



2
    OMB Circular A-87 was moved to 2 CFR 225 effective August 31, 2005.



www.oig.dhs.gov                                       5                                 OIG-14-44-D

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

using construction cost data and, after disallowing $48,600 of ineligible costs, awarded the
District $7,631,855 for the contract work.3

However, subsequent to FEMA analysis, the contractor submitted a corrected invoice to the
District that reduced final costs for the mold remediation work to $6,885,301, or $746,554 less
than the amount that FEMA awarded the District for the contract work. The contractor
corrected the billings because of calculation errors it had made in documenting recovery costs,
labor costs, and several other cost elements of the contract. Although FEMA acknowledged the
corrected invoice in a narrative included in the project worksheet, it inadvertently used the
contractor’s original billings to calculate eligible project costs during project closeout.
Therefore, we question the $746,554 as ineligible because that is the difference in amount of
FEMA funds that the District received for the mold remediation and what it paid for the mold
remediation services.

DistrictfResponse. District officials disagreed with our finding, saying that FEMA was accurate in
its review of the contract and invoices and that FEMA awarded the proper costs for the work.
They also said that the District has no information to support that the costs were excessive and
that they believe the costs are reasonable.

OIGfResponse. We disagree that District officials did not have information to support that the
costs were excessive. As previously discussed, the District’s contractor submitted a revised
invoice to the District in May 2006 that reduced final contracts by $746,554. Therefore, the
District should have been aware that the amount of funding FEMA awarded the District under
the project exceeded the total costs the contractor billed the District for project work.

Finding C: Duplicate Benefits

The District received $181,618 of duplicate benefits for the replacement of damaged
equipment and books. Section 312 of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyf
AssistancefAct,fas amended, states that no entity will receive assistance for any loss for which it
has already received financial assistance from any other program, from insurance, or from any
other source.

The District received $181,618 of FEMA funding under several projects to replace damaged
books and equipment. However, the District replaced the damaged books and equipment using
donations it received from various third parties. The value of these donations totaled $181,618;
$164,400 in cash and books, and equipment valued at $17,218. For example, under Projects
7802 and 8058 (Waveland Elementary and North Bay Elementary schools), FEMA awarded the

3
  FEMA calculated reasonable costs using RSMeans. RS Means, a product line of Reed Construction Data, is a
supplier of construction cost information for North America. RSMeans provides accurate and up-to-date cost
information used to project the cost of building construction and renovation projects.

www.oig.dhs.gov                                      6                                             OIG-14-44-D

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security

District $36,429 for damaged refrigerators and kitchen warmers. However, the District received
two refrigerators and two warmers valued at $17,218 from private donors, which replaced the
damaged equipment. Therefore, we question the $181,618 of duplicate benefits as table 1
identifies.

                            Table 1. Questioned Costs for Duplicate Benefits
               Project                                                      Value of      Amount
               Number            School                 Donated Item        Donation     Questioned
                 7802    Waveland Elementary      Refrigerator and warmer     $ 8,377      $ 8,377
                 8058    North Bay Elementary     Refrigerator and warmer        8,841         8,841
                 8347    Bay High School          Cash to replace books         75,000        75,000
                 8350    Waveland Elementary      Cash to replace books         60,000        60,000
                 8350    Waveland Elementary      Library books                 17,000        17,000
                8373     North Bay Elementary     Cash to replace books         12,400        12,400
                Totals                                                        $181,618     $181,618



DistrictfResponse. District officials disagreed with our finding, saying that they were not aware
of any private donations to replace damaged items that FEMA funded.

OIGfResponse. We disagree with District officials. As explained in the finding, we specifically
identified several items totaling $181,618 that FEMA funded for which the District replaced
with cash and other items it received from private donors.

Finding D: Grant Management

The nature and extent of ineligible costs we identified demonstrate that the State should have
done a better job of reviewing the District’s contracting methods and project costs. Federal
regulations require grantees to (1) ensure that subgrantees are aware of Federal regulations,
(2) manage the day-to-day operations of subgrant activity, and (3) monitor subgrant activity to
ensure compliance.4 Therefore, we recommend that FEMA remind the State of its grant
management responsibilities for monitoring and reviewing costs that subgrantees claim.


                                                RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $4,405,625 of ineligible costs the District claimed for contracts
that it did not procure in accordance with Federal requirements, unless FEMA decides to grant
an exception for all or part of the costs as provided for in 44 CFR 13.6(c) and Section 705(c) of

4
    44 CFR 13.37(a)(2) and 44 CFR 13.40(a).

www.oig.dhs.gov                                         7                                              OIG-14-44-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as amended, and
determines the costs are reasonable (finding A).

Recommendation #2: Instruct the State to remind subgrantees of their responsibility to comply
with Federal procurement regulations and FEMA guidelines when acquiring goods and services
under the FEMA award (finding A).

Recommendation #3: Disallow $746,554 for ineligible contract costs the District received for
mold remediation services under Project 8422 (finding B).

Recommendation #4: Disallow $181,618 of duplicate benefits the District received from third-
party donors for damaged items (finding C).

Recommendation #5: Reemphasize to the State and FEMA Region IV Public Assistance
personnel their responsibility to adequately review costs subgrantees claim for compliance with
Federal regulations and FEMA guidelines (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with the District, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at the exit
conference held on October 1, 2013. District officials disagreed with our findings and
recommendations. We incorporated their comments, as appropriate, into the body of this
report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include the contact
information for responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive and evaluate your
response, we will consider the recommendations open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Director; Larry Arnold, Audit Manager;
Katrina Griffin, Auditor-in-Charge; Alicia Lewis, Auditor; and Sharonda Toney, Auditor.




www.oig.dhs.gov                                8                                        OIG-14-44-D

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Director, Eastern Regional Office, at (404) 832-6702.




www.oig.dhs.gov                              9                                      OIG-14-44-D

                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security

                                                                                                                            Exhibit

                                Schedule of Projects Audited and Questioned Costs

                                                                  Questioned Cost
                                               Cost Plus
                                              Percentage
                                                of Cost
                                               Contract         Full and     Ineligible
                                               and Cost          Open          Project      Duplicate
             Project Amount       Amount        Analysis     Competition        Cost        Benefits     Total Amount
 Project        Awarded           Claimed     (Finding A)     (Finding A)   (Finding B)    (Finding C)    Questioned
Projects Included in Full Scope:
   930           $ 5,789,716      $ 6,596,590   $1,211,159    $ 108,700      $         0   $       0         $1,319,859
   932               900,669          900,669            0            0                0           0                  0
  6185             4,466,343        4,466,343            0        3,928                0           0              3,928
  7480             1,774,933        1,774,933            0        1,991                0           0              1,991
  8422             7,631,855        7,631,855            0            0          746,554           0            746,554
  9470             2,748,340          199,304            0            0                0           0                  0
 11157             3,652,145        3,652,145            0            0                0           0                  0
Subtotal        $26,964,001      $25,221,839    $1,211,159    $ 114,619         $746,554   $       0         $2,072,332
Projects Reviewed for Work Completion:
  8651               $18,632          $15,471   $        0    $        0     $        0    $       0        $           0
  9083                18,653           18,653            0             0              0            0                    0
  9303                17,602           28,000            0             0              0            0                    0
Subtotal         $    54,887     $     62,124 $          0    $        0     $        0    $       0        $           0
Projects Reviewed for Federal Contracting Requirements:
  5886              $165,072         $971,060     $141,862       $12,219    $          0   $       0           $154,081
  5913               237,810          237,810       37,031         3,670              0            0             40,701
  7483             1,057,147        1,057,147            0           869              0            0                869
  7493             1,560,739        1,560,739            0         1,493              0            0              1,493
  7495             1,488,131        1,488,131            0         1,646              0            0              1,646
  7563             1,363,967        1,363,967            0           661              0            0                661
  8056               144,027          154,645            0             0              0            0                  0
  8297                69,235           69,235            0       560,213              0            0            560,213
  8298                84,363           84,363            0       624,006              0            0            624,006
  8318               117,135          117,135            0             0              0            0                  0
  9061               958,527          958,527      160,533             0              0            0            160,533
  9305               958,890        1,136,407      190,324             0              0            0            190,324
  9307             1,741,066        1,857,460      311,085             0              0            0            311,085
  9316               619,238          835,321      139,899             0              0            0            139,899
  9368               520,312          620,442      103,911             0              0            0            103,911
  9395             1,058,776        1,530,895      256,392             0              0            0            256,392
  9397             1,045,405          538,508       90,189             0              0            0             90,189
  9427               589,665          669,988      112,209             0              0            0            112,209
  9680               310,577          272,117            0       183,022              0            0            183,022
  9681               608,532          415,504       69,588             0              0            0             69,588
  9682               545,759          471,852       79,025             0              0            0             79,025
Subtotal        $15,244,373      $16,411,253    $1,692,048    $1,387,799     $        0    $       0         $3,079,847
Projects Reviewed for Duplicate Benefits:
  7802              $189,192     $          0    $       0    $        0     $      0        $8,377              $8,377
  8058               191,291                0            0             0            0         8,841               8,841
  8347               548,121          101,808            0             0            0        75,000              75,000
  8350               424,099           72,142            0             0            0        77,000              77,000
  8373               197,527          167,481            0             0            0        12,400              12,400
Subtotal         $ 1,550,230     $ 341,431 $             0    $        0     $      0      $181,618          $ 181,618
 Totals         $43,813,491      $42,036,647    $2,903,207    $1,502,418     $746,554      $181,618          $5,333,797




www.oig.dhs.gov                                               10                                                    OIG-14-44-D

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

                                                                           Appendix


                                     Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Chief Procurement Officer
Director, Risk Management and Compliance
Audit Liaison, Region IV
Audit Liaison (Job Code G-13-017)

State
Executive Director, Mississippi Emergency Management Agency
State Auditor, Mississippi

Subgrantee
Grants and Projects Manager, Bay St. Louis Waveland School District

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform


www.oig.dhs.gov                             11                             OIG-14-44-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
